No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

CHRISTIAN KALEN CRAWFORD,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Second District Court of Appeal

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certifies that on
this 21st day of June, 2021, a copy of the Petition for Writ of Certiorari in the aboveentitled case was mailed first class, postage prepaid, to:

Office of the Attorney General
Concourse Center 4
3507 East Frontage Road, Suite 200
Tampa, Florida 33607-7013

Page 1 of 2

I further certify that all parties required to be served have been served.

Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 2

